               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        City Delivery – Street Efficiency
               Louisiana District

                       Audit Report




                                              August 16, 2012

Report Number DR-AR-12-004
                                                                         August 16, 2012

                                                       City Delivery – Street Efficiency
                                                                     Louisiana District

                                                          Report Number DR-AR-12-004



BACKGROUND:
Delivery operations has the highest           route, or 107,550 workhours, and save
fixed cost in the U.S. Postal Service,        about $4.4 million annually. Our review
making up more than 30 percent of its         of selected delivery units determined
operating expenses. Within the delivery       that management did not always
carrier’s function, street operations         reinforce Postal Service policies and
account for almost 265 million                procedures for supervising city delivery
workhours which city carriers used in         street operations at delivery units, which
fiscal year 2011.                             allowed for some inefficient delivery
                                              practices. This audit also identified
Street operations is comprised of every       assets at risk totaling $65,698 at four
duty a carrier performs from the time         delivery units due to inadequate asset
they load their vehicle, deliver, and         safeguards. Management immediately
collect mail along the route to their         initiated corrective action on these
return to the delivery unit to unload their   security matters.
vehicle. Street delivery includes carriers
delivering and collecting mail on their       WHAT THE OIG RECOMMENDED:
assigned routes. The Louisiana District       We recommended the manager,
is in the Southern Area and has 90 units      Louisiana District, reduce workhours by
delivering mail on 1,643 routes.              107,550. We also recommended
                                              reinforcing policies and procedures for
Our objective was to assess the               supervising city delivery street
efficiency of city delivery street            operations at delivery units and
operations in the Louisiana District.         eliminating inefficient practices. Further,
                                              we recommended the district manager
WHAT THE OIG FOUND:                           ensure that Delivery Point Sequencing
The Louisiana District has opportunities      mail is staged in route order for easy
for enhanced street delivery efficiency.      retrieval by carriers.
We determined the Louisiana District
could use about 12 fewer minutes of
street time per day on each carrier           Link to review the entire report
August 16, 2012

MEMORANDUM FOR:             BRUNO L. TRISTAN
                            DISTRICT MANAGER, LOUISIANA DISTRICT

                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – City Delivery – Street Efficiency
                            Louisiana District (Report Number DR-AR-12-004)

This report presents the results of our audit of City Delivery Street Efficiency in the
Louisiana District (Project Number 12XG016DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Jo Ann Feindt
    Dean J. Granholm
    Elizabeth A. Schaefer
    Severo Garza
    Keith M. Accardo
    Corporate Audit and Response Management
City Delivery – Street Efficiency                                                                                      DR-AR-12-004
 Louisiana District


                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Street Delivery Efficiency .................................................................................................... 1

   Setting Expectations and Following Up on Previous Street Performance .................... 2

   Street Supervision ........................................................................................................... 2

   More Efficient Carrier Practices ...................................................................................... 3

   Carriers Searching for Delivery Point Sequenced Mail .................................................. 5

   Other Issues..................................................................................................................... 6

Recommendations .............................................................................................................. 7

Management’s Comments .................................................................................................. 7

Evaluation of Management’s Comments ............................................................................ 7

Appendix A: Additional Information..................................................................................... 9

   Background ...................................................................................................................... 9

   Objective, Scope, and Methodology ............................................................................... 9

   Prior Audit Coverage ..................................................................................................... 11

Appendix B: Monetary and Other Impacts ....................................................................... 12

Appendix C: Management’s Comments ........................................................................... 13
City Delivery – Street Efficiency                                                                       DR-AR-12-004
 Louisiana District



Introduction

This report presents the results of our audit of city delivery street 1 efficiency in the
Louisiana District (Project Number 12XG016DR000). We discussed this topic with the
vice president, Delivery and Post Office Operations, and agreed to a Value Proposition 2
audit for fiscal year (FY) 2012. Our objective was to assess the efficiency of city delivery
street operations in the Louisiana District. See Appendix A for additional information
about this audit. The audit addresses operational risk and is one in a series to be
conducted by the U.S. Postal Service Office of Inspector General (OIG).

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. In contrast, delivery points have increased by over 2.3 million
since 2008. 3 The Postal Service must improve operational efficiency to reduce costs
while facing financial losses from declining mail volume.

Conclusion

The Louisiana District has opportunities for enhanced city street delivery efficiency and
reduced workhour costs. We determined the Louisiana District could use 12 fewer
minutes of street time per day on each carrier route, or 107,550 workhours annually. As
a consequence, the Postal Service would save more than $4.4 million annually (see
Appendix B).

The audit also identified assets at risk totaling $65,698 at four delivery units due to the
need for better asset safeguards. Management immediately initiated corrective actions
on these security matters.

Street Delivery Efficiency

An increased focus on efficiency would allow management to reduce carrier street
workhours. Our review of 15 randomly 4 selected delivery units determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery street operations at delivery units which allowed for some
inefficient delivery practices.



1
  Street delivery (or street time) is comprised of every duty a carrier performs from the time they load their vehicle,
deliver, and collect mail along the route to their return to the delivery unit to unload their vehicle.
2
  An agreement between the director, Delivery, and vice president, Delivery and Post Office Operations, on work that
will address issues of importance to the Postal Service.
3
  City delivery is responsible for 1,097,020 of the 2,390,741 delivery points added from FYs 2007 through 2011.
4
  We obtained the random sample from delivery units having 15 or more routes and using 875 or more hours than
projected in the Delivery Operations Information System (DOIS) during calendar year 2011.
                                                               1
City Delivery – Street Efficiency                                                                            DR-AR-12-004
 Louisiana District



For example, management needs to ensure that:

   Supervisors set daily expectations and follow up on the previous day’s street
    performance.

   There is a consistent supervisory presence on the street.

   Carriers deliver mail using the most efficient habits so as not to incur unnecessarily
    additional street time.

   Delivery point sequence 5 (DPS) letters processed at the plant arrive at delivery units
    staged in route order for easy retrieval by carriers.

Setting Expectations and Following Up on Previous Street Performance

We observed supervisors not consistently setting expectations for carriers’ street leave
and return times 6 or engaging in dialogue with carriers about expectations for the day.
We also observed that delivery unit management did not consistently follow up on the
previous day’s street performance. Supervisors must set daily expectations for carrier
performance. The DOIS Route Carrier Performance Report provides the supervisor with
information needed to discuss carrier performance. Although supervisors printed the
report, they did not always discuss it with carriers at 13 of 15 units observed. If a carrier
does not meet performance standards, a supervisor must investigate and discuss
performance deficiencies with the carrier. 7 Furthermore, management should take
advantage of opportunities to discuss good performance with carriers.

Street Supervision

Supervisors did not consistently provide sufficient oversight of street operations as
required by Postal Service policy. 8 Our observations found that delivery unit supervisors
were not always performing daily street supervision. Supervisors stated that large
amounts of administrative work impeded them from being able to conduct effective daily
street supervision of their carriers. Street management is necessary to maintain both
the projected street time of the routes and the customer’s expected time of delivery.

One effective tool used to assist in conducting street supervision is a Postal Service
(PS) Form 3999, Inspection of Letter Carrier Route, documenting the carrier's ability to
deliver their route. Our review showed that management did not always have up-to-date


5
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel.
Mail is taken directly to the street, with no casing time in the office.
6
  The OIG did not always observe supervisors setting daily expectations for carriers in 12 of 15 delivery units
observed.
7
  Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 5-7.
8
  Postal Service Handbook, M-39, Management of Delivery Services, Section 134.12, March 1998.


                                                             2
City Delivery – Street Efficiency                                                                             DR-AR-12-004
 Louisiana District



PS Forms 3999 and 28 percent 9 of these forms were more than 1 year old. Supervisors
are required to complete a PS Form 3999 for each route at least annually. A current
PS Form 3999 also allows the supervisor to know exactly the carrier's line-of-travel and
where a carrier should be and at what time and helps a supervisor monitor street
performance by providing information on how long a section of deliveries should take.

As a way to increase street supervision, the Louisiana District implemented a “Best
Practice Street Supervision Initiative” developed by the Southern Area in April 2012.
The initiative’s purpose was to improve city carrier performance and promote
accountability for street supervision by requiring a minimum of 2 hours of street
supervision daily, depending on the size of the delivery unit. Larger offices have
dedicated street supervisors who conduct a minimum of 6 hours of street supervision
daily. Additionally, the initiative emphasizes communicating carrier expectations and
following up on carrier performance, observing vehicle loading practices, and ensuring
the carrier adheres to the prescribe line-of- travel. Identifying and commending positive
performance is also stressed along with improving poor performance.

More Efficient Carrier Practices

The OIG observed instances of carriers not using efficient carrier practices while
performing street duties at all 15 delivery units. These opportunities include:

   More efficient loading of vehicles.
   Using satchels to hold mail.
   Fingering 10 mail between deliveries.
   Following the line-of-travel. 11

We observed opportunities for carriers to more efficiently load their vehicles before they
depart for the street. Specifically, some carriers were unnecessarily making multiple
trips to retrieve mail between the delivery unit and their postal vehicles. We also
observed some carriers making trips to their personal vehicles to obtain personal items
(see Figure 1). Postal Service policy 12 states that carriers should take all mail for
delivery to the vehicle at the same time using a hamper and avoiding extra trips. Postal
Service policy also states that managers must supervise loading area activities to
prevent delays in carriers departing for the street.




9
  A review of the Enterprise Data Warehouse (EDW) showed that 480 of 1,681 PS Forms 3999 were older than 1
year as of February 17, 2012.
10
   The final separation of mail for the next several stops along with the verification of the address for delivery.
11
   Line-of-travel refers to the specific order of deliveries on a carrier’s route, as well as the streets traveled to service
these deliveries.
12
   Handbook M-39, Sections 125.1 and 125.22, March 1998.


                                                              3
City Delivery – Street Efficiency                                                                         DR-AR-12-004
 Louisiana District


                      Figure 1: Carrier at Personal Vehicle on Street Time




                  Source: OIG Photo taken in April 2012.


We observed that carriers did not consistently load their satchels or use satchels to
deliver mail on park-and-loop routes. 13 Inconsistent or improper use of satchels results
in carriers having to make more frequent trips to retrieve mail from their vehicle, thus
incurring additional street time. Postal Service procedures require carriers delivering
mail on park-and-loop routes to use their vehicles as movable relay boxes 14 from which
the carrier withdraws a substantial amount of mail and places it into his satchel before
beginning the route. Carriers are required to carry the appropriate amount of mail, up to
the 35-pound limit, to complete each assigned relay without additional trips to the
vehicle or relay box 15 (see Figure 2).




13
   Routes where the carrier drives to the general delivery location and conducts door-to-door delivery on foot.
14
   Bundles or strapped mail the carrier prepares in sacks for delivery to boxes on the carrier’s line-of-travel. When the
carrier completes delivery of carry-out mail, they may pick up additional mail from relay boxes and continue this
process until the entire route is served.
15
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 273, March 1998.


                                                            4
City Delivery – Street Efficiency                                                                      DR-AR-12-004
 Louisiana District


        Figure 2: Carrier Delivering Mail Without Required Satchel Resulting in
                   Unnecessary Trips to Retrieve Mail from Vehicle




      Source: OIG Photo taken in April 2012.


We also observed some carriers not “fingering mail” between deliveries to place
mailpieces in order while delivering on park-and-loop routes. Postal Service policy 16
states that carriers are required to finger mail between deliveries to avoid having to sort
through mail while standing at the customer’s box and incurring additional street time.

In addition, carriers did not always follow their established line-of-travel. Postal Service
policy 17 states that carriers must deliver mail along a prescribed route and are required
to follow their authorized line-of-travel at all times. We observed carriers sometimes
deviating from their established line-of-travel and incurring extra street time by
unnecessarily moving their vehicle to multiple park points rather than relying on one
central park point. Carriers also did not always use the delivery method 18 listed on their
line-of-travel. For example, we observed carriers dismounting from their vehicle to
deliver mail when their line-of-travel was more efficiently coded as a park-and-loop
route.

Carriers Searching for Delivery Point Sequenced Mail

At all delivery units observed, DPS letters processed at the plants arrived at delivery
units in mail transport containers that were not staged by route order for easy retrieval.
This resulted in carriers having to sort through multiple transport containers each day to

16
   Handbook M-39, Section 125.6, March 1998, and Handbook M-41, Section 321.5, March 1998.
17
   Handbook M-41, Section 122.11, March 1998 and Handbook M-39, Section 125.3, March 1998.
18
   PS Form 3999 lists the carrier’s prescribed line-of-travel and delivery method to be used such as a park-and-loop,
vehicle, or dismount.


                                                          5
City Delivery – Street Efficiency                                                                       DR-AR-12-004
 Louisiana District


identify their DPS while on street time. 19 When carriers have to search for their DPS
trays, this extends their street time by delaying their loading and departure. In addition,
at several delivery units we found instances of carriers having to return to the delivery
unit because they had not properly located all their DPS mail or another carrier had
taken it by mistake. Postal Service policy20 states “. . . mail processing should stage
DPS letters for transport in shelved or modified containers so individual trays do not
have to be rehandled at the delivery unit and can be taken directly to the street without
further handling.” 21 Management stated it is their goal to stage DPS mail in route order
and believes it will save carrier time (see Figure 3).

            Figure 3: Carriers on Street Time Searching for Trays of DPS Mail




                        Source: OIG Photo taken in April 2012.


Adjusting its operations and improved supervision during carrier street delivery
would increase the Louisiana District’s overall efficiency by reducing 107,550
workhours. We estimated this would result in the Postal Service saving more than
$4.4 million annually, or about $8.8 million over 2 years (see Appendix B).

Other Issues

Safeguarding of assets requires management’s attention at four of the delivery units
visited. Stamp stock inventory was not properly secured and locked at three locations,
while at a fourth location Registered Mail was left unattended in an open cart on the
workroom floor near the rear entry doors. The value of these unsecured items totaled

19
    The OIG previously reported on the effects of DPS handling on carrier office efficiency and workhours in the report
titled National Assessment of City Delivery Efficiency 2011 – Office Performance (Report Number
DR-MA-11-002, dated July 19, 2011).
20
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 2-6, 2007.
21
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 4-5, 2007.


                                                           6
City Delivery – Street Efficiency                                               DR-AR-12-004
 Louisiana District


$65,698. Physical access controls reduce the security risk to Postal Service employees
while safeguarding controls reduces the potential for loss or misappropriation of assets.
We brought these issues to the attention of station management who took immediate
action to correct the situation. As a result, we are not making recommendations on
these issues.

Recommendations

We recommend the district manager, Louisiana District:

1. Reduce 107,550 workhours to achieve an associated economic impact of more than
   $4.4 million annually, or $8.8 million over 2 years.

2. Reinforce and ensure adherence to Postal Service policies and procedures for
   supervising city delivery street operations at delivery units and eliminate carrier
   inefficient practices during street time.

3. Increase street efficiency by coordinating with facility processing managers to
   ensure Delivery Point Sequence mail is staged in route order for easy retrieval by
   carriers.

Management’s Comments

Management agreed in principle with the findings, recommendations, and monetary
impact. In response to recommendation 1, the Louisiana District outlined actions it will
take in several areas to promote greater efficiency. These include (1) performing (1) PS
Form 1838, Carriers Count of Mail, reviews (2) conducting a minimum of 2 hours street
supervision each day, and (3) taking corrective action for any carrier performance
issues. Management stated they are implementing corrective actions immediately, with
an estimated completion date of September 30, 2014.

Management agreed with recommendation 2 to reinforce policies and procedures.
Management held mandatory service talks with all city carriers and stated they have
completed action on this recommendation.

Managed agreed with recommendation 3 to ensure DPS mail is staged in route order.
Management stated they implemented actions in July 2012 and issues are discussed
daily on the Plant and Customer Service teleconference. The district has completed
action on this recommendation. See Appendix C for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                             7
City Delivery – Street Efficiency                                          DR-AR-12-004
 Louisiana District


The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                           8
City Delivery – Street Efficiency                                                 DR-AR-12-004
 Louisiana District


                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. The Postal Service must improve operational efficiency to
reduce costs while facing financial losses from declining mail volume.

Despite a high degree of automation, mail delivery remains labor intensive. Labor costs
comprise nearly 80 percent of the Postal Service's costs. Delivery operations have the
highest fixed cost in the system, making up more than 30 percent of the Postal Service's
operating expenses. Within the delivery carrier’s function, street operations made up
264,989,254 of the overall 349,564,154 total office and street workhours 22 city carriers
used in FY 2011 (more than 76 percent). Street operations (or street time) is comprised
of every duty a carrier performs from the time they load their vehicle, deliver, and collect
mail along the route to their return to the delivery unit to unload their vehicle. The
Louisiana District is in the Southern Area and has 90 delivery units delivering mail on
1,693 routes and expended almost 4.4 million total workhours from January 1 through
December 31, 2011.

Unlike the carrier office function, a supervisor is not always present to observe each
carrier as they conduct deliveries along their route. This leaves opportunity for
inefficiency to enter the process. To effectively manage this manual process and
improve productivity, delivery supervisors strive to eliminate process inefficiencies and
manage costs by accurately matching workload to workhours, adjusting or eliminating
unnecessary routes, managing staff resources, and following a rigorous standardization
of best practices.

Objective, Scope, and Methodology

Our objective was to assess the overall efficiency of city delivery street operations in the
Louisiana District. To accomplish our objective, we:

      Determined and used DOIS street variance data to access performance and
       opportunities for efficiency based on discussions with Postal Service officials and
       OIG experts. Street operations have no preferred measurement of efficiency.

      Reviewed DOIS street variance hours from the EDW for January 1 through
       December 31, 2011, in the Louisiana District to determine the opportunity for greater
       efficiency. The difference between DOIS-projected street hours and the actual street
       hours used on an individual delivery route or entire unit resulted in the number of
       variance hours. A positive variance means the delivery unit used more street hours


22
     DOIS workhours queried from the EDW.


                                                9
City Delivery – Street Efficiency                                             DR-AR-12-004
 Louisiana District


    than DOIS projected, which indicates there is an opportunity for greater efficiency on
    the street.

   Randomly selected 15 delivery units in the Louisiana District that used more street
    hours than projected from January 1 through December 31, 2011, to determine
    opportunities for greater efficiency and reduced operating costs. We projected cost
    savings for delivery units in the Louisiana District using more actual street hours
    than projected.

   Reviewed and discussed procedures for street operations with management in
    selected delivery units. We judgmentally selected individual city routes to review and
    observed carrier street performance.

   Reviewed documentation and applicable policies and procedures for city delivery
    and Postal Service Handbooks M-39 and M-41.

We conducted this performance audit from March to August 2012, in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on July 12, 2012, and included their comments where
appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed limited data integrity review
to support our data reliance. We determined the data were sufficiently reliable for the
purposes of this report.




                                            10
City Delivery – Street Efficiency                                               DR-AR-12-004
 Louisiana District



Prior Audit Coverage

                                     Final
   Report               Report      Report      Monetary
     Title              Number       Date        Impact              Report Results
 City               DR-AR-10-002    12/18/09   $21,308,433    The audit concluded the San
 Delivery                                                     Francisco Napoleon Street
 Efficiency                                                   Station was not operating at
 Review                                                       peak efficiency and
 – San                                                        management could reduce
 Francisco                                                    city delivery costs. Our
 Napoleon                                                     benchmarking comparison of
 Street                                                       five similar delivery units
 Station                                                      showed this station used
                                                              54,975 more workhours than
                                                              necessary. We also found
                                                              that management did not
                                                              adjust workhours to changes
                                                              in workload. Management
                                                              agreed with our findings and
                                                              recommendations to correct
                                                              the issues identified.
 City               DR-AR-12-001    6/05/12     $6,840,240   The San Diego District has
 Delivery –                                                  opportunities for enhanced
 Street                                                      street delivery efficiency. An
 Efficiency –                                                increased focus on efficiency
 San Diego                                                   could allow management to
 District                                                    reduce approximately 83,930
                                                             carrier street workhours. Our
                                                             review of selected delivery
                                                             units determined
                                                             management did not always
                                                             reinforce Postal Service
                                                             policies and procedures for
                                                             supervising city delivery
                                                             street operations in delivery
                                                             units which allowed for some
                                                             inefficient delivery practices.
                                                             Management agreed with our
                                                             findings and
                                                             recommendations.




                                               11
City Delivery – Street Efficiency                                                                     DR-AR-12-004
 Louisiana District



                             Appendix B: Monetary and Other Impacts

                                              Monetary Impacts

           Recommendation                          Impact Category                           Amount
                 1                              Funds Put to Better Use 23                  $8,874,598


We estimated the monetary impact of $8,874,598 in funds put to better use by reducing
107,550 workhours at delivery units in the Louisiana District (see Table 1).

                          Table 1. Louisiana District Workhour Savings

                                        Estimated              Annual                 2-Year
                                        City                   Estimated              Projection of
                                        Delivery               Savings from           Savings from
                               Delivery Workhours              Overtime               Overtime
       District                Units    Saved                  Workhours              Workhours
       Louisiana                 90      107,550                $4,397,720              $8,874,598
      Source: OIG.

We calculated funds put to better use for reducing city carrier workhours using the
Louisiana District city carrier overtime rate of $40.89 for FY 2013, with an escalation
factor of 1.8 percent for the 2-year projection.

The 107,550 annual workhour savings represent 6,453,000 minutes (107,550 hours
multiplied by 60 minutes). Dividing the more than 6 million minutes by 1,693 routes 24 in
the Louisiana District and then dividing by 303 annual days equals an approximate
savings of about 12 minutes per route per day.

                                                 Other Impacts

             Recommendation                              Impact Category                     Amount
           Safeguarding of Assets                         Assets at Risk 25                  $65,698




23
   Funds that could be used more efficiently by implementing recommended actions.
24
   Number of routes in the Louisiana District as of February 21, 2012.
25
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         12
City Delivery – Street Efficiency                                DR-AR-12-004
 Louisiana District


                             Appendix C: Management’s Comments




                                            13
City Delivery – Street Efficiency        DR-AR-12-004
 Louisiana District




                                    14
City Delivery – Street Efficiency        DR-AR-12-004
 Louisiana District




                                    15
